1a
APPENDIX A
THE STATE OF SOUTH CAROLINA
In The Supreme Court
Thayer W. Arredondo, as Personal Representative of
the Estate of Hubert Whaley, deceased, Petitioner,
v.
SNH SE Ashley River Tenant, LLC; FVE Managers,
Inc.; Five Star Quality Care, Inc.; SNH SE Tenant
TRS, Inc.; Senior Housing Properties Trust; SNH
TRS, Inc.; Candy D. Cure; John Doe; Jane Doe;
Richard Roe Corporation; and Mary Doe
Corporation, Defendants,
Of which SNE SE Ashley River Tenant, LLC; FVE
Managers, Inc.; Five Star Quality Care, Inc.; SNH
SE Tenant TRS, Inc.; Senior Housing Properties
Trust; SNH TRS, Inc.; and Candy D. Cure are the
Respondents.
Appellate Case No. 2019-001767
ON WRIT OF CERTIORARI TO
THE COURT OF APPEALS
Appeal from Charleston County
J.C. Nicholson, Jr., Circuit Court Judge
Opinion No. 28011
Heard November 19, 2020 —
Filed March 10, 2021

2a
REVERSED
Kenneth Luke Connor, Christopher Caleb
Connor and Laura S. Jordan, all of Connor &
Connor, LLC, of Aiken, for Petitioner.
G. Mark Phillips and Robert William
Whelan, of Nelson Mullins Riley &
Scarborough, LLP, of Charleston, for
Respondents.
JUSTICE JAMES: This appeal concerns the
enforceability of an arbitration agreement executed
between Ashley River Plantation, an assisted-living
facility (the facility), and Thayer Arredondo, the
attorney-in-fact under two powers of attorney
executed by Hubert Whaley, a facility resident. In an
unpublished opinion, the court of appeals held the
arbitration agreement was enforceable. Arredondo v.
SNH SE Ashley River Tenant, LLC, Op. No. 2019-UP293 (S.C. Ct. App. filed Aug. 14, 2019). We hold
neither power of attorney gave Arredondo the
authority to sign the arbitration agreement.
Therefore, we reverse the court of appeals.
I. Background
On October 12, 2012, Arredondo decided to place
Mr. Whaley, her father, in Respondents’ Ashley River
Plantation assisted-living facility in Charleston.
Whaley was eighty-four years old, was diagnosed with
dementia, and required assistance with daily

3a
functions such as bathing, dressing, toileting, and
taking medications. When Whaley was admitted into
the facility, Arredondo held two valid powers of
attorney, a General Durable Power of Attorney
(GDPOA) and a Health Care Power of Attorney
(HCPOA).
When Arredondo and Whaley arrived at the
facility, Arredondo met with a facility representative
and signed various documents in connection with
Whaley’s admission. During that meeting, the facility
representative did not mention or present an
arbitration agreement to Arredondo. Later that day,
after Whaley was admitted, Arredondo met with a
different facility representative who, according to
Arredondo, told her she “needed to sign additional
documents related to [her] father’s admission to the
facility.” Included among those documents was the
arbitration agreement, which Arredondo signed.
The arbitration agreement, which Arredondo
obviously executed before any dispute arose between
the parties, contains a mutual waiver of the right to a
trial by judge or jury and requires arbitration of all
claims involving potential damages exceeding
$25,000. The agreement bars either party from
appealing the arbitrators’ decision, prohibits an
award of punitive damages, limits discovery, and
provides Respondents the unilateral right to amend
the agreement.
On February 21, 2014, while he was still a
resident at the facility, Whaley was admitted to Bon
Secours St. Francis Hospital, where he died six days
later. Arredondo, as Personal Representative of

4a
Whaley’s estate, brought this action alleging claims
for wrongful death and survival against Respondents.
The complaint alleges that during his residency at the
facility, Whaley suffered serious physical injuries and
died as a result of Respondents’ negligence and
recklessness.
Respondents moved to compel arbitration. In
opposition to the motion, Arredondo argued (1) the
two powers of attorney did not give her the authority
to sign the arbitration agreement, and (2) even if she
had authority to sign it, the agreement is
unconscionable and therefore unenforceable. To
buttress her unconscionability argument, Arredondo
submitted an affidavit in which she described the
events surrounding her execution of the arbitration
agreement. Arredondo stated that when she had
questions about the arbitration agreement and told
the facility representative she was not comfortable
signing it, the facility representative responded, “this
[is] a document that everyone sign[s] when admitting
their loved ones to the facility and that [Arredondo]
needed to sign the ‘Arbitration Agreement’ in order to
ensure [Whaley’s] admission to the facility.”
Respondents insist the evidence supports only the
conclusion that Arredondo’s execution of the
arbitration agreement was not a prerequisite for
Whaley’s admission into the facility. As we will
discuss, our determination of whether Arredondo was
required to sign the agreement in order for Whaley to
be admitted is dispositive of the threshold issue of
whether Arredondo had authority under the HCPOA
to sign the arbitration agreement.

5a
In denying Respondents’ motion to compel
arbitration, the circuit court ruled neither power of
attorney gave Arredondo the authority to sign the
arbitration agreement and also ruled that even if
Arredondo had authority to sign it, the agreement is
unconscionable. The court of appeals reversed,
holding Arredondo had actual authority to execute
the arbitration agreement and holding the agreement
is not unconscionable. This Court granted
Arredondo’s petition for a writ of certiorari to review
the court of appeals’ decision.
II. Discussion
“Arbitrability determinations are subject to de
novo review.” Johnson v. Heritage Healthcare of
Estill, LLC, 416 S.C. 508, 512, 788 S.E.2d 216, 218
(2016) (quoting Dean v. Heritage Healthcare of
Ridgeway, LLC, 408 S.C. 371, 379, 759 S.E.2d 727,
731 (2014)). “Nevertheless, a circuit court’s factual
findings will not be reversed on appeal if any evidence
reasonably supports the findings.” Id. (quoting
Simpson v. MSA of Myrtle Beach, Inc., 373 S.C. 14,
22, 644 S.E.2d 663, 667 (2007)). “The litigant opposing
arbitration bears the burden of demonstrating that he
has a valid defense to arbitration.” Id.
Arredondo argues the court of appeals erred in
holding the two powers of attorney granted her
authority to sign the arbitration agreement. She also
contends the court of appeals erred in holding the
arbitration agreement is not unconscionable. We hold
neither power of attorney gave Arredondo the
authority to execute the arbitration agreement. In

6a
light of our holding on that point, we need not address
the issue of unconscionability.
A. Arredondo’s Authority to Execute the
Arbitration Agreement
“Our courts have looked to contract law when
reviewing actions to set aside or interpret a power of
attorney.” Stott v. White Oak Manor, Inc., 426 S.C.
568, 577, 828 S.E.2d 82, 87 (Ct. App. 2019). “The
cardinal rule of contract interpretation is to ascertain
and give effect to the intention of the parties, and, in
determining that intention, the court looks to the
language of the contract.” Id. (quoting Watson v.
Underwood, 407 S.C. 443, 454-55, 756 S.E.2d 155, 161
(Ct. App. 2014)). “When the language of a contract is
plain and capable of legal construction, that language
alone determines the instrument’s force and effect.”
Id. (quoting Watson, 407 S.C. at 455, 756 S.E.2d at
161). Accordingly, we look to the specific language of
the GDPOA and HCPOA to determine whether either
document authorized Arredondo to execute a predispute arbitration agreement.
Before we begin our review of the authority
granted to Arredondo by the powers of attorney, we
emphasize our analysis does not turn upon the
presence or absence of an explicit reference to
arbitration or arbitration agreements in the powers of
attorney. The decision of the United States Supreme
Court (USSC) in Kindred Nursing Centers Ltd.
Partnership v. Clark1 forecloses such an approach. In
1

137 S. Ct. 1421 (2017).

7a
Kindred, the USSC reviewed two of three
consolidated cases from the Supreme Court of
Kentucky, one dealing with a power of attorney
signed by Wellner and another signed by Clark.2 In
both cases, the agents holding the powers of attorney
signed arbitration agreements when their principals
were admitted into a nursing facility. The Supreme
Court of Kentucky held an agent was authorized to
sign an arbitration agreement depriving her principal
of “an ‘adjudication by judge or jury’ only if the power
attorney ‘expressly so provide[d].’” 137 S. Ct. at 1426
(quoting Whisman, 478 S.W.3d at 329). The USSC
dubbed this approach the “clear-statement rule” and
held it violated the Federal Arbitration Act (FAA) by
“fail[ing] to put arbitration agreements on an equal
plane with other contracts.” Id. at 1426-27. The USSC
then held the Clark power of attorney undoubtedly
authorized the agent to sign an arbitration agreement
because it granted the agent the all-encompassing
authority “to transact, handle, and dispose of all
matters affecting me and/or my estate in any possible
way” and “[g]enerally to do and perform for me and in
my name all that I might do if present.” Id. at 1425;
see Whisman, 478 S.W.3d at 317-18. As such, no
remand for further proceedings related to the Clark
power of attorney was necessary. However, the USSC
noted the Supreme Court of Kentucky had
invalidated the Wellner arbitration agreement on two
Extendicare Homes, Inc. v. Whisman, 478 S.W.3d 306 (Ky.
2015). Belinda Whisman, the agent under a power of attorney
executed by her father, was the lead respondent in the three
cases before the Supreme Court of Kentucky. However, only the
Wellner and Clark powers of attorney were before the USSC in
Kindred.
2

8a
alternative grounds, one based upon the prohibited
clear-statement rule and the other based upon the
Kentucky Court’s finding that the Wellner power of
attorney was not otherwise broad enough to allow
Wellner’s agent to sign a pre-dispute arbitration
agreement. Noting these alternative holdings, the
USSC remanded the Wellner case to the Supreme
Court of Kentucky for an analysis of whether the
alternative holding was tainted by or not wholly
independent of the clear-statement rule. We discuss
below the Supreme Court of Kentucky’s decision on
remand.
1. The General Durable Power of Attorney
Paragraph one of the General Durable Power of
Attorney (GDPOA) authorized Arredondo:
To make, sign, execute, issue, assign,
transfer, endorse, release, satisfy and deliver
any and all instruments or writing of every
kind and description whatsoever, whether
sealed or unsealed, of, in or concerning any or
all of my business affairs, property or other
assets whatsoever, including all property,
real, personal or mixed, stocks, securities and
choses in action, and wheresoever situated,
including, without limiting the generality
hereof thereto, notes, bonds, mortgages,
leases, deeds, conveyances, bills of sale, and
assignments,
endorsements,
releases,
satisfactions, pledges or any agreements
concerning any transfers of the above or of
any other property, right or thing.

9a
(a) Chose in action
The court of appeals held the GDPOA granted
Arredondo authority to execute the arbitration
agreement because it “granted Arredondo authority
to execute all instruments concerning all types of
property, including ‘choses in action.’” Further, the
court of appeals held Arredondo’s authority under the
GDPOA “extended to ‘any other property, right or
thing.’” Arredondo first takes issue with what she
claims was the court of appeals’ overly broad
interpretation of the term “choses in action.” She
contends the court of appeals erroneously elevated a
chose in action to include a cause of action that did
not exist at the time Arredondo signed the arbitration
agreement. In light of the language used in the
GDPOA, we agree with Arredondo.
A “chose in action” is a type of property interest or
a proprietary right to a claim or debt. See Ball v. Ball,
312 S.C. 31, 33-34, 430 S.E.2d 533, 534-35 (Ct. App.
1993) (holding a vested military pension was a “chose
in action,” or form of property, because the recipient
“could maintain an action at law to enforce this right
should the military ever wrongfully attempt to deny
it to him”), aff’d, 314 S.C. 445, 445 S.E.2d 449 (1994);
see also Chose in Action, Black’s Law Dictionary (11th
ed. 2019) (defining “chose in action” as “a proprietary
right in personam, such as a debt owed by another
person, a share in a joint-stock company, or a claim
for damages in tort” (emphasis added)). Arredondo
and Respondents agree “chose in action” generally
means “cause of action.”

10a
Respondents contend the court of appeals
correctly held the GDPOA authorized Arredondo to
sign the arbitration agreement because the
agreement concerned a cause of action against the
facility. Again, Arredondo argues this interpretation
fails because Whaley did not possess a cause of action
against Respondents at the time the arbitration
agreement was signed. Respondents cite Ball for the
proposition that “South Carolina courts construe the
term ‘property’ very broadly.” 312 S.C. at 33, 430
S.E.2d at 534. We agree with that basic proposition,
but it does not necessarily mean the GDPOA applied
to a property right that did not exist at the time
Arredondo signed the arbitration agreement. We
return to Kindred and the Supreme Court of
Kentucky’s decision on remand to explain.
As noted above, in Kindred, the USSC remanded
the case of the Wellner power of attorney with
instructions to the Supreme Court of Kentucky to
determine whether its application of the prohibited
“clear-statement rule” impermissibly tainted its
alternative holding that the Wellner power of
attorney otherwise did not authorize Wellner’s agent
to sign a pre-dispute arbitration agreement. 137 S. Ct.
at 1429. The Supreme Court of Kentucky considered
the remanded issue in Kindred Nursing Centers Ltd.
Partnership v. Wellner, 533 S.W.3d 189 (Ky. 2017).
One provision of the Wellner power of attorney
authorized Wellner’s agent “to make, execute and
deliver deeds, releases, conveyances and contracts of
every nature in relation to both real and personal
property, including stocks, bonds, and insurance.”
Wellner, 533 S.W.3d at 193 (quoting Whisman, 478
S.W.3d at 325). Similar to Respondents’ position in

11a
the instant case, the nursing facility seeking to
enforce the arbitration agreement in Wellner claimed
the term “personal property” included choses in action
such as personal injury claims. Id. at 192-93. While
the Supreme Court of Kentucky recognized “a
personal injury claim is a chose-in-action, and
therefore constitutes personal property,” it
nevertheless held—independently of the clearstatement rule—the “pre-dispute arbitration contract
did not relate to any property rights of … Wellner.”
Id. at 194 (“By executing [the nursing home’s] predispute arbitration agreement, [Wellner’s agent] did
not ‘make, execute and deliver deeds, releases,
conveyances and contracts of [any] nature in relation
to [Wellner’s] property.’ The only ‘thing’ of …
Wellner’s affected by the pre-dispute arbitration
agreement was his constitutional rights, which no one
contends to be his real or personal property.” (quoting
Whisman, 478 S.W.3d at 325-26)).
We agree with the rationale of the Supreme Court
of Kentucky. 3 We hold this particular GDPOA did not
authorize Arredondo to sign the arbitration
agreement because the arbitration agreement did not
concern a chose in action or any other property right
Whaley possessed at the time Arredondo signed it.
(b) “Transfer” of property, right, or thing
We also hold the court of appeals erred in
concluding Arredondo’s authority under the GDPOA
The USSC denied the nursing facility’s subsequent petition for
a writ of certiorari. Kindred Nursing Ctrs. Ltd. P’ship v. Wellner,
139 S. Ct. 319 (2018).

3

12a
“extended to ‘any other property, right or thing.’” The
court of appeals took this phrase out of context, as the
complete provision including this phrase authorized
Arredondo to execute “any agreements concerning
any transfers of the above or of any other property,
right or thing.” (emphases added). The GDPOA does
not define “transfers.” “Where a contract is
unambiguous, clear and explicit, it must be construed
according to the terms which the parties have used, to
be taken and understood in their plain, ordinary, and
popular sense.” Warner v. Weader, 280 S.C. 81, 83,
311 S.E.2d 78, 79 (1983). The plain, ordinary, and
popular meaning of the noun “transfer” is a
“conveyance of right, title, or interest in real or
personal property from one person to another.”
Transfer,
Merriam-Webster
Dictionary,
https://www.merriamwebster.com/dictionary/transfer (last visited Mar. 4,
2021). By signing the arbitration agreement,
Arredondo (for herself, for Whaley, and for his heirs
and executors) waived the right to a jury trial, waived
any claim to punitive damages, agreed to limited
discovery, and waived the right to appeal the
arbitration decision. These acts were not “transfers”
of anything to anyone. Thus, the provision of the
GDPOA authorizing Arredondo to enter into any
agreements concerning transfers of any property,
right, or thing did not grant her the authority to sign
the arbitration agreement.
(c) Title of GDPOA
Finally, Respondents argue the power of
attorney’s title—“General Durable Power of
Attorney”—suggests Whaley intended for the

13a
instrument to grant Arredondo broad authority.
Rather than relying on such a generalization, we look
to the actual language of the GDPOA to determine
what authority it granted Arredondo. While the
GDPOA gave Arredondo significant authority to
make business and property decisions for Whaley, the
mere title of the document did not increase
Arredondo’s authority beyond the plain meaning of
the provisions contained in the document. Certainly,
the GDPOA could have been drafted to give
Arredondo the broad power to sign all documents
Whaley could sign himself or otherwise do anything
Whaley could do himself, but it was not so drafted. Cf.
Kindred, 137 S. Ct. at 1429 (explaining the Clark
power of attorney, which provided the agent power “to
transact, handle, and dispose of all matters affecting
me and/or my estate in any possible way,” and
“generally to do and perform for me and in my name
all that I might do if present,” was broad enough to
authorize the execution of a pre-dispute arbitration
agreement).
For the foregoing reasons, we hold the court of
appeals erred in concluding the GDPOA granted
Arredondo authority to execute the arbitration
agreement.
2. The Health Care Power of Attorney
When Whaley was admitted to the facility,
Arredondo also held a Health Care Power of Attorney
(HCPOA) naming her as Whaley’s attorney-in-fact. In
their arguments regarding Arredondo’s authority
under this instrument, the parties focus solely upon
the provisions of subparagraph 11(d) in the “Agent’s

14a
Powers” section of the HCPOA. Subparagraph 11(d)
authorized Arredondo:
To take any other action necessary to making,
documenting, and assuring implementation
of decisions concerning my health care,
including, but not limited to, granting any
waiver or release from liability required by
any hospital, physician, nursing care
provider, or other health care provider;
signing any documents relating to refusals of
treatment or the leaving of a facility against
medical advice, and pursuing any legal action
in my name, and at the expense of my estate
to force compliance with my wishes as
determined by my agent, or to seek actual or
punitive damages for the failure to comply.
(a)
Action
“necessary”
to
making,
documenting, or implementing a health care
decision
The court of appeals held the HCPOA granted
Arredondo the authority to sign the arbitration
agreement because it authorized her “to pursue legal
action and to grant any waiver required by health
care providers such as [Respondents].” We will
discuss that holding in a moment, but we initially
address the first clause of subparagraph 11(d).
Arredondo clearly had no authority to take any action
under the first clause of subparagraph 11(d) unless
the action taken was “necessary to making,
documenting, and assuring implementation” of a
decision concerning Whaley’s health care. (emphasis
added). The only health care decision in play when

15a
Arredondo signed the arbitration agreement was
Arredondo’s decision to seek Whaley’s admission into
the facility. Consequently, we must determine
whether signing the arbitration agreement was
“necessary” to Arredondo making, documenting, and
assuring implementation of that decision.
The plain, ordinary, and popular meaning of the
word “necessary” is “absolutely needed” or “required.”
Necessary,
Merriam-Webster
Dictionary,
https://www.merriam-webster.com/dictionary/
necessary (last visited Mar. 4, 2021). We hold
Arredondo’s signature on the arbitration agreement
was not “absolutely needed” or “required” to ensure
Whaley’s admission into the facility. In support of her
argument on the separate issue of whether the
arbitration agreement is unconscionable, Arredondo
submitted her affidavit in which she testified a
facility representative told her she had to sign the
agreement in order for Whaley to be admitted. On the
issue of unconscionability, Respondents have
consistently maintained Arredondo was not required
to sign the arbitration agreement. During its
discussion of the issue of unconscionability, the circuit
court found, “[Arredondo] was only told [the
arbitration agreement] must be signed to ensure
[Whaley’s] admission to the facility.” (emphasis added
by the circuit court). These arguments relative to
unconscionability cut against the parties’ respective
interests on the threshold issue of Arredondo’s
authority under the HCPOA. Nevertheless, we must
determine the propriety of this factual finding of the
circuit court by examining the evidence in the record.
See Johnson, 416 S.C. at 512, 788 S.E.2d at 218 (“[A]
circuit court’s factual findings will not be reversed on

16a
appeal if any evidence reasonably supports the
findings.” (citation omitted)). We hold the evidence in
the record reasonably supports only the finding urged
by Respondents—the arbitration agreement was
presented to Arredondo as a “voluntary standalone”
agreement that was not a prerequisite for Whaley’s
admission into the facility. Arredondo plainly stated
in her affidavit that Whaley had already been
admitted into the facility and provided with a room
before Arredondo was asked to sign the arbitration
agreement. Similarly, in their brief to this Court,
Respondents state: “[The facility] did not present the
Agreement until after Arredondo received the
services she requested.” As Respondents stressed
during oral argument before this Court, once Whaley
was admitted to the facility, he was entitled to
statutory protections, and the facility could not have
discharged him had Arredondo refused to sign the
arbitration agreement. See S.C. Code Ann. § 44-8140(D) (2018) (“A resident may be transferred or
discharged only for medical reasons, for the welfare of
the resident or for the welfare of other residents of the
facility, or for nonpayment and must be given written
notice of not less than thirty days ….”).
As courts in other jurisdictions have recognized,
the characterization of an arbitration agreement as
either a mandatory condition to admission or an
optional, collateral agreement often determines the
authority issue when the agent holds a power of
attorney empowering her to make necessary health
care decisions. Compare LP Louisville E., LLC v.
Patton, 605 S.W.3d 300, 311 (Ky. 2020) (“[W]hen an
agreement to arbitrate is presented as a condition of
admission to a nursing home, unless otherwise

17a
agreed, a power of attorney expressing general
authority to make necessary health care decisions
includes the incidental or reasonably necessary
authority to enter that agreement.”), with Dickerson
v. Longoria, 995 A.2d 721, 739 (Md. 2010) (explaining
an agent authorized to make health care decisions on
his principal’s behalf did not have authority to
execute a voluntary arbitration agreement because
“[t]he decision to sign a free-standing arbitration
agreement is not a health care decision if the patient
may receive health care without signing the
arbitration agreement”), Life Care Ctrs. of Am. v.
Smith, 681 S.E.2d 182, 185-86 (Ga. Ct. App. 2009)
(explaining health care power of attorney did not
authorize daughter to execute “optional” arbitration
agreement on mother’s behalf when daughter was
authorized “to make any decision [the mother] could
make to obtain or terminate any type of health care”),
Miss. Care Ctr. of Greenville, LLC v. Hinyub, 975 So.
2d 211, 218 (Miss. 2008) (explaining health care
surrogate did not have authority to execute
arbitration agreement on her father’s behalf because
the execution of an arbitration agreement is not a
health care decision when the arbitration agreement
is not required for admission into the nursing home),
Coleman v. United Health Servs. of Ga., Inc., 812
S.E.2d 24, 26 (Ga. Ct. App. 2018) (explaining agent
authorized to take action necessary to admit principal
to health care facility did not have authority to
execute “voluntary” arbitration agreement), Wisler v.
Manor Care of Lancaster PA, LLC, 124 A.3d 317, 324
(Pa. Super. Ct. 2015) (stating an agent’s authority to
consent to medical treatment on behalf of a principal
“does not necessarily entail the authority to consent

18a
to arbitration, agreement to which was not a
precondition to be admitted to [the facility]”), and
Miller v. Life Care Ctrs. of Am., Inc., 478 P.3d 164,
172-74 (Wyo. 2020) (explaining durable health care
power of attorney did not give agent authority to
execute arbitration agreement because arbitration
agreement was not required for admission to health
care facility and, therefore, was unrelated to
principal’s health care).
(b) Authority to grant any waiver required
by a health care provider
We now return to the court of appeals’ holding
that subparagraph 11(d) of the HCPOA granted
Arredondo the authority to sign the arbitration
agreement because the HCPOA authorized her “to
pursue legal action and to grant any waiver required
by health care providers such as [Respondents].”
Addressing the second part of this holding first, we
note subparagraph 11(d) gave Arredondo the
authority to sign only those waivers “required by
[a] … health care provider.” (emphasis added). As
Respondents contend, the arbitration agreement
includes a series of waivers (of the right to
adjudication by a judge or jury, of the right to an
award of punitive damages, and of the right to an
appeal). As we have already discussed, Arredondo
was not required to sign the arbitration agreement for
Whaley to be admitted. Since Arredondo was not
required to sign the arbitration agreement, it logically
follows that any waivers contained in the agreement
were not required by the facility. For the reasons set
forth above in our discussion of the term “necessary,”
we conclude the HCPOA did not give Arredondo the

19a
authority to grant the waivers recited in the
arbitration agreement.
(c) Authority to pursue legal action
The court of appeals also held the provision in
subparagraph 11(d) of the HCPOA authorizing
Arredondo to “pursu[e] any legal action in [Whaley’s]
name” granted her the authority to sign the
arbitration agreement. Arredondo claims that
because she signed the arbitration agreement before
any potential legal claim accrued, this provision did
not grant her authority to sign the agreement.
Respondents argue this language of the HCPOA did
not limit Arredondo’s authority to taking action only
after a cause of action accrues. Respondents contend
Arredondo’s authority to pursue legal action included
selecting arbitration as a preferred forum for dispute
resolution.
We first note the parties overlook the context in
which this provision appears in subparagraph 11(d) of
the HCPOA. This provision authorized Arredondo to
pursue legal action only to “force compliance with
[Whaley’s] wishes as determined by [Whaley’s] agent,
or to seek actual or punitive damages for the failure
to comply.” For that reason alone, we hold this
provision of the HCPOA is of no significance in this
case. However, even if this provision authorized
Arredondo to pursue legal action unrelated to forcing
compliance with Whaley’s health care wishes, this
provision still did not authorize Arredondo to sign a
pre-dispute arbitration agreement. In Wellner, the
Supreme Court of Kentucky analyzed a provision of
the Wellner power of attorney authorizing the agent

20a
to “demand, sue for, collect, recover and receive all …
demands whatsoever,” and to “institute legal
proceedings.” 533 S.W.3d at 193-94. The Court
recognized “the power to institute or defend suits
concerning [Wellner’s] property rights would
necessarily encompass the power to make litigationrelated decisions within the context of a suit so
instituted, including the decision to submit the
pending dispute to mediation or arbitration.” Id. at
193 (quoting Whisman, 478 S.W.3d at 323) (internal
quotation marks omitted). Yet, the Court held the
provision did not grant the agent authority to execute
a pre-dispute arbitration agreement: “the act of
executing a pre-dispute arbitration agreement upon
admission to a nursing home ha[s] nothing at all to do
with … institut[ing] legal proceedings.” Id. at 193-94
(quoting Whisman, 478 S.W.3d at 325) (internal
quotation marks omitted) (second alteration in
original). Here, Arredondo did not execute the
arbitration agreement in connection with an existing
claim Whaley had against the facility. We again agree
with the Supreme Court of Kentucky’s reasoning and
conclude Arredondo’s execution of the pre-dispute
arbitration agreement did not constitute the pursuit
of legal action.
We hold the court of appeals erred in holding the
HCPOA granted Arredondo authority to execute the
arbitration agreement.
III. Conclusion
Under the facts of this case, neither the GDPOA
nor the HCPOA granted Arredondo authority to
execute the arbitration agreement. Therefore, we

21a
reverse the court of appeals and hold the arbitration
agreement is unenforceable. We need not address
Arredondo’s argument that the arbitration agreement
is unconscionable. See Futch v. McAllister Towing of
Georgetown, Inc., 335 S.C. 598, 613, 518 S.E.2d 591,
598 (1999) (providing that an appellate court need not
address remaining issues when resolution of a prior
issue is dispositive).

REVERSED.
BEATTY, C.J., KITTREDGE and HEARN, JJ.,
concur. FEW, J., concurring in a separate
opinion.

22a
JUSTICE FEW: I concur in the majority opinion. I
write only to address Respondents’ and the court of
appeals’ reliance on the obsolete phrase “chose in
action.” The majority takes two steps regarding
Respondents’ argument as to the meaning of the
phrase “chose in action.” The majority’s first step is to
hold that the phrase does not mean what Respondents
claim it means. I completely agree with the majority.
The second step is unnecessarily to define the phrase.
In doing so, the majority brings a new and undeserved
life to a phrase that—in my opinion—has no precise
meaning in modern law. It is time for attorneys and
courts to stop using such antiquated phrases, not to
resuscitate them.
Historically, a “chose” was a “thing,” as in a physical
thing. See William C. Anderson, A DICTIONARY OF LAW
179 (1891) (defining “CHOSE” as “A thing recoverable
by an action at law: a thing, personalty”); 1 Alexander
M. Burrill, A LAW DICTIONARY AND GLOSSARY 288
(1869) (defining “CHOSE” as “A thing”). A “chose in
action” was the legal right to bring an action in court
to recover the thing, “A thing of which one has not the
possession or actual enjoyment, but only a right to it,
or a right to demand it by action at law.” Burrill,
supra, at 288. Even in the nineteenth century,
however, the phrase had no precise definition, and the
general definition changed over time according to
usage. See, e.g., William R. Anson, PRINCIPLES OF THE
LAW OF CONTRACT 362 n.(b) (1919) (“The term chose
in action has been in common use for a long time, but
some doubts have been recently raised as to its precise
meaning.” (citing Law Quarterly Review for 1983,
1894, 1895)). In one lengthy attempt at explaining the
meaning of the phrase, two authors wrote, “Originally

23a
the term was only applied to a right of action in the
strict sense, that is, the right to bring an action at law,
but subsequently it was extended to the right of
taking proceedings in equity.” 1 Stewart Rapalje and
Robert L. Lawrence, A DICTIONARY OF AMERICAN AND
ENGLISH LAW 207 (1883); see also id. (“A right of
presentation to a benefice when the church is vacant
is called in the old books a chose in action; but this use
of the word is obsolete.”) (citation omitted). Other
early commentators described varying limits for the
use of the phrase. See, e.g., Percy Bordwell, Seisin and
Disseisin (Concluded) v. Chattels, 34 Harv. L. Rev.
717, 722-23 (1921) (stating “it is hard to include a
right to a chattel in the adverse possession of another
as a chose in possession, just as it is hard to include
under choses in action such incorporeal rights as
patents, copyrights, and trade names which have
none of the ephemeral characteristics of rights of
action”); Thaddeus D. Kenneson, Purchase for Value
Without Notice, 23 Yale L.J. 193, 194 (1914) (stating
“a chose in action always presupposes a personal
relation between two individuals”).
In South Carolina, a “chose in action” included a right
to property in the form of “notes or bonds,” such as
those “taken by an administrator at a sale of his
intestate’s estate.” Rhame v. Lewis, 34 S.C. Eq. 269,
303 (13 Rich Eq. 93, 105) (Ct. App. 1867) (citing
Thackum v. Longworth, 11 S.C. Eq. 267, 274 (2 Hill
Eq. 132, 134) (Ct. App. L. & Eq. 1835)). Still, the
phrase was used to describe “a thing” in the sense of
an existing right in property that is not in the owner’s
current possession. The phrase is used in one
subsection of our Rules of Civil Procedure, Rule 17(e),
and in several current sections of the South Carolina

24a
Code, each retaining the link between the phrase and
“property.” See, e.g., S.C. Code Ann. § 12-6-30(11)
(2014) (defining “Tangible property” in the Income
Tax Act to exclude “choses in action”); S.C. Code Ann.
§ 12-16-20(4) (2014) (defining “Intangible personal
property” in the Estate Tax Act to include “choses in
action”); S.C. Code Ann. § 16-23-710(17) (2015)
(“‘Property’ … includ[es] … choses in action, and other
similar interest in property.”); S.C. Code Ann. § 3336-840(2) (2006) (providing after merger of not-forprofit corporations, “The new or surviving corporation
… possesses … all property, real and personal,
applications for membership, all debts due on
whatever account, and all other choses in action of
each of the consolidating or merging corporations.”);
S.C. Code Ann. § 40-39-10(3) (Supp. 2020) (defining
“Pledged goods” as to “Pawnbrokers” as “tangible
personal property … , choses in action, … , which
property is deposited with or otherwise actually
delivered into the possession of a pawnbroker in the
course of his business”).
In the 1979 edition of BLACK’S LAW DICTIONARY,
“Chose” still meant, “A thing; an article of personal
property,” Chose, BLACK’S LAW DICTIONARY (5th ed.
1979), and “Chose in action” still meant, “Right of
proceeding in a court of law to procure payment of
sum of money, or right to recover a personal chattel
or a sum of money by action,” Chose in action, BLACK’S
LAW DICTIONARY (5th ed. 1979). Eventually, as usage
changed, courts and commentators have expanded
the definition. See, e.g., Narruhn v. Alea London Ltd.,
404 S.C. 337, 344 n.3, 745 S.E.2d 90, 93 n.3 (2013) (“A
‘chose in action’ has been variously defined … .”);
Anson, supra, at 362 n.1 (“The term ‘chose in action’

25a
may have once meant the physical thing to be
recovered; but it now means an aggregate of legal
relations that include one or more rights in personam.
It does not include patents or copyrights, for in these
rights are in rem.”); chose in action, BLACK’S LAW
DICTIONARY (11th ed. 2019) (stating the phrase
includes “A proprietary right in personam, such as …
a claim for damages in tort”).
If there was a time in our history when the phrase
conveyed a precise meaning, the phrase has lost that
meaning as the passage of time brought new usages.
What is left of “chose in action” is a descriptive phrase
with no precise meaning, a phrase we should stop
using because it is not only vague and meaningless
but also obsolete. Today, if lawyers wish to write legal
instruments such as powers of attorney with precise
meaning, they should use phrases that in current
usage are defined precisely, and they should avoid
phrases like “chose in action” that mean nothing.
As the majority explains, the Supreme Court of the
United States reversed the Kentucky Supreme
Court’s interpretation of a power of attorney
regarding arbitration because the “clear statement
rule” the Kentucky court’s interpretation created
“fails to put arbitration agreements on an equal plane
with other contracts.” Kindred Nursing Centers Ltd.
P’ship v. Clark, 137 S. Ct. 1421, 1427, 197 L. Ed. 2d
806, 812 (2017). Our Court, therefore, may not find a
power of attorney inadequate to grant the authority
to agree to arbitration based on what the document
does not say about arbitration. In this case, our Court
must examine what the General Durable Power of
Attorney does say about Ms. Arredondo’s authority to

26a
bind her father. Respondents rely on what they claim
is clarity in the phrase “choses in action.” In using the
phrase “chose in action,” however, the General
Durable Power of Attorney does not grant any
authority because the phrase does not mean
anything. The majority’s first step ends the analysis
because the phrase “choses in action” does not say a
thing about Ms. Arredondo’s authority to bind her
father to an arbitration provision.

27a
APPENDIX B
THIS OPINION HAS NO PRECEDENTIAL
VALUE. IT SHOULD NOT BE CITED OR
RELIED ON AS PRECEDENT IN ANY
PROCEEDING EXCEPT AS PROVIDED BY
RULE 268(d)(2), SCACR.
THE STATE OF SOUTH CAROLINA
In The Court of Appeals
Thayer W. Arredondo, as Personal Representative of
the Estate of Hubert Whaley, deceased, Respondent,
v.
SNH SE Ashley River Tenant, LLC; FVE Managers,
Inc.; Five Star Quality Care, Inc.; SNH SE Tenant
TRS, Inc.; Senior Housing Properties Trust; SNH
TRS, Inc.; Candy D. Cure; John Doe; Jane Doe;
Richard Roe Corporation; and Mary Doe
Corporation, Defendants,
Of which SNE SE Ashley River Tenant, LLC; FVE
Managers, Inc.; Five Star Quality Care, Inc.; SNH
SE Tenant TRS, Inc.; Senior Housing Properties
Trust; SNH TRS, Inc.; and Candy D. Cure are the
Appellants.
Appellate Case No. 2017-001298
Appeal from Charleston County
J.C. Nicholson, Jr., Circuit Court Judge

28a
Unpublished Opinion No. 2019-UP-293
Heard June 5, 2019 — Filed August 14, 2019
REVERSED
G. Mark Phillips and Robert William
Whelan, both of Nelson Mullins Riley &
Scarborough, LLP, of Charleston, for
Appellants.
Kenneth Luke Connor and Christopher
Caleb Connor, both of Connor & Connor
LLC, of Aiken; and Laura Stewart Jordan, of
Augusta, Georgia, for Respondent.
PER CURIAM: SNE SE Ashley River Tenant, LLC;
FVE Managers, Inc.; Five Star Quality Care, Inc.;
SNH SE Tenant TRS, Inc.; Senior Housing Properties
Trust; SNH TRS, Inc.; and Candy D. Cure
(collectively, Appellants) appeal the trial court’s
denial of their motion to compel arbitration. They
assert the trial court erred in holding neither the
General Durable Power of Attorney nor the Health
Care Power of Attorney provided nursing home
resident Hubert Whaley’s daughter, Thayer W.
Arredondo, with actual or apparent authority to
execute the Arbitration Agreement. They also assert
the trial court erred in finding the Arbitration
Agreement was unconscionable. We reverse.

29a
STANDARD OF REVIEW
“Arbitrability determinations are subject to de novo
review.” Johnson v. Heritage Healthcare of Estill,
LLC, 416 S.C. 508, 512, 788 S.E.2d 216, 218 (2016)
(quoting Dean v. Heritage Healthcare of Ridgeway,
LLC, 408 S.C. 371, 379, 759 S.E.2d 727, 731 (2014)).
“Nevertheless, a circuit court’s factual findings will
not be reversed on appeal if any evidence reasonably
supports the findings.” Id. (quoting Simpson v. MSA
of Myrtle Beach, Inc., 373 S.C. 14, 22, 644 S.E.2d 663,
667 (2007)). “The litigant opposing arbitration bears
the burden of demonstrating that he has a valid
defense to arbitration.” Id. (citing Dean, 408 S.C. at
379, 759 S.E.2d at 731; Gen. Equip. & Supply Co. v.
Keller Rigging & Constr., S.C., Inc., 344 S.C. 553, 556,
544 S.E.2d 643, 645 (Ct. App. 2001)). “The policy of
the United States and South Carolina is to favor
arbitration of disputes.” Zabinski v. Bright Acres
Assocs., 346 S.C. 580, 596, 553 S.E.2d 110, 118 (2001)
(citing Tritech Elec., Inc. v. Frank M. Hall & Co., 343
S.C. 396, 399, 540 S.E.2d 864, 865 (Ct. App. 2000)).
LAW/ANALYSIS
1. We agree with Appellants’ argument the trial court
erred in holding the authority granted to Arredondo
by the two Powers of Attorney did not authorize her
to enter into the Arbitration Agreement because
arbitration was not specifically listed among the
powers.

30a
The Federal Arbitration Act (FAA)1 “makes
arbitration agreements ‘valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.’” Kindred
Nursing Ctrs. Ltd. P’ship v. Clark, 137 S. Ct. 1421,
1426 (2017) (quoting 9 U.S.C.A. § 2). “That statutory
provision establishes an equal-treatment principle: A
court may invalidate an arbitration agreement based
on ‘generally applicable contract defenses’ like fraud
or unconscionability, but not on legal rules that ‘apply
only to arbitration or that derive their meaning from
the fact that an agreement to arbitrate is at issue.’”
Id. (quoting AT & T Mobility LLC v. Concepcion, 563
U.S. 333, 339 (2011)). “[T]he decision to enter into an
arbitration agreement primarily concerns the
signatory’s decision to waive his or her right of access
to the courts and right to a trial by jury.” Hodge v.
UniHealth Post-Acute Care of Bamberg, LLC, 422 S.C.
544, 566-67, 813 S.E.2d 292, 304 (Ct. App. 2018), cert.
denied, (S.C. Sup. Ct. Order dated Aug. 21, 2018)
(quoting Dickerson v. Longoria, 995 A.2d 721, 736-37
(Md. 2010)).
“A power of attorney is an instrument in writing by
which one person, as principal, appoints another as
his agent and confers upon him the authority to
perform certain specified acts or kinds of acts on
behalf of the principal.” Watson v. Underwood, 407
S.C. 443, 454, 756 S.E.2d 155, 161 (Ct. App. 2014)
(quoting In re Thames, 344 S.C. 564, 569, 544 S.E.2d
854, 856 (Ct. App. 2001)). The United States Supreme
Court rejected the Kentucky Supreme Court’s
1

9 U.S.C.A. §§ 1-16 (West 2009).

31a
application of its “clear statement rule,” which
provided a power of attorney could not entitle a
representative to enter into an arbitration agreement
without specific language granting that authority.
Kindred Nursing Ctrs. Ltd. P’ship, 137 S. Ct. at 142627. The Supreme Court explained, “Because that rule
singles out arbitration agreements for disfavored
treatment, we hold that it violates the FAA.” Id. at
1425. Under South Carolina law, an act does not have
to be specifically enumerated in a power of attorney
in order for the agent to be authorized to perform the
act on behalf of the principal. See First S. Bank v.
Rosenberg, 418 S.C. 170, 181, 790 S.E.2d 919, 925-26
(Ct. App. 2016) (rejecting appellant’s contention “that
an agent cannot sign a guaranty on behalf of his
principal pursuant to a power of attorney unless the
power of attorney specifically authorized the
execution because this assertion is unsupported by
South Carolina law”). Applying the equal treatment
principal, we hold a power of attorney does not need
to explicitly refer to arbitration in order to grant the
agent authority to execute an arbitration agreement
as long as the powers granted are broad enough to
include such an act. Thus, we find the trial court erred
in imposing a more restrictive requirement for
authority to execute an arbitration agreement.
We turn to the language of the Powers of Attorney to
determine whether they provided authority for
Arredondo to execute the Arbitration Agreement on
behalf of her father.
“Our courts have looked to contract law when
reviewing actions to set aside or interpret a power of
attorney.” Stott v. White Oak Manor, Inc., 426 S.C.

32a
568, 577, 828 S.E.2d 82, 87 (Ct. App. 2019), cert.
pending, (citing In re Thames, 344 S.C. at 571, 544
S.E.2d at 857; Watson, 407 S.C. at 454, 756 S.E.2d at
161). “The cardinal rule of contract interpretation is
to ascertain and give effect to the intention of the
parties, and, in determining that intention, the court
looks to the language of the contract.” Id. (quoting
Watson, 407 S.C. at 454-55, 756 S.E.2d at 161).
“Whe[n] the language of a contract is plain and
capable of legal construction, that language alone
determines the instrument’s force and effect.” Id.
(quoting Watson, 407 S.C. at 455, 756 S.E.2d at 161).
We disagree with Arredondo’s argument her
authority under the General Durable Power of
Attorney was limited solely to business affairs. The
broad language of this Power of Attorney granted
Arredondo authority to execute all instruments
concerning all types of property, including “choses in
action.” Furthermore, this authority extended to “any
other property, right or thing.” Likewise, the Health
Care Power of Attorney was not limited to health care
decisions as Arredondo contends. It also authorized
Arredondo to pursue legal action and to grant any
waiver required by health care providers such as
Appellants. But c.f., Hodge, 422 S.C. at 567, 813
S.E.2d at 304 (noting courts in other jurisdictions
have held “the decision to sign an arbitration
agreement was not a health care decision ... [when]
signing the arbitration agreement was not a
prerequisite to admission to a health care facility”
(quoting Dickerson, 995 A.2d at 738). Thus, we hold
the Powers of Attorney authorized Arredondo to
waive the right to jury trial and execute an agreement

33a
selecting the forum in which any legal action would
be taken.
2. We agree with Appellants’ argument the trial court
erred in finding the Arbitration Agreement was
unconscionable.
Although a court may invalidate an arbitration
agreement on the defense of unconscionability, it may
not invalidate such an agreement “under state laws
applicable only to arbitration provisions.” Zabinski,
346 S.C. at 593, 553 S.E.2d at 116. “In South Carolina,
unconscionability is defined as the absence of
meaningful choice on the part of one party due to onesided contract provisions, together with terms that
are so oppressive that no reasonable person would
make them and no fair and honest person would
accept them.” Smith v. D.R. Horton, Inc., 417 S.C. 42,
49, 790 S.E.2d 1, 4 (2016) (quoting Simpson, 373 S.C.
at 24-25, 644 S.E.2d at 668). “In analyzing claims of
unconscionability of arbitration agreements, ...
[courts should] focus generally on whether the
arbitration clause is geared towards achieving an
unbiased decision by a neutral decision-maker.” One
Belle Hall Prop. Owners Ass’n, Inc. v. Trammell Crow
Residential Co., 418 S.C. 51, 60, 791 S.E.2d 286, 291
(Ct. App. 2016) (quoting Simpson, 373 S.C. at 25, 644
S.E.2d at 668).
“Absence of meaningful choice on the part of one party
generally speaks to the fundamental fairness of the
bargaining process in the contract at issue.” Simpson,
373 S.C. at 25, 644 S.E.2d at 669. “In determining
whether a contract was ‘tainted by an absence of
meaningful choice,’ courts should take into account

34a
the nature of the injuries suffered by the plaintiff;
whether the plaintiff is a substantial business
concern; the relative disparity in the parties’
bargaining power; the parties’ relative sophistication;
whether there is an element of surprise in the
inclusion of the challenged clause; and the
conspicuousness of the clause.” Id. (quoting Carlson v.
Gen. Motors Corp., 883 F.2d 287, 293, 295 (4th Cir.
1989).
We find Arredondo did not lack meaningful choice
when she executed the Arbitration Agreement. Even
if the Arbitration Agreement was an adhesion
contract, “[t]he fact that a contract is one of adhesion
does not make it unconscionable.” Lackey v. Green
Tree Fin. Corp., 330 S.C. 388, 395, 498 S.E.2d 898, 901
(Ct. App. 1998); see Munoz v. Green Tree Fin. Corp.,
343 S.C. 531, 541 n.5, 542 S.E.2d 360, 365 n.5 (2001)
(noting “[i]nequality of bargaining power alone will
not invalidate an arbitration agreement” (citing
Gilmer v. Interstate/Johnson Lane Corp., 500 U.S. 20,
33 (1991); Harris v. Green Tree Fin. Corp., 183 F.3d
173, 183 (3d Cir. 1999))).
We find the Arbitration Agreement was neither a
surprise nor inconspicuous. It was a separate contract
and clearly labeled. In a dissent, Chief Justice Toal
explained the benefits of using a separate contract for
an arbitration agreement as follows: “Using a
separate contract for arbitration agreements is
conducive to greater freedom of choice for the
consumer. It also better protects the nursing home
from a contention that the arbitration contract is
unconscionable.” Coleman v. Mariner Health Care,
Inc., 407 S.C. 346, 357, 755 S.E.2d 450, 456 (2014)

35a
(Toal, C.J., dissenting) (citing Hayes v. Oakridge
Home, 908 N.E.2d 408, 413 (Ohio 2009) (holding an
arbitration agreement that was a free standing
document and its execution “was voluntary and not a
condition of [ ] admission” into the nursing home was
not unconscionable)).
The record contains no evidence of Arredondo’s
education, experience, or business acumen to
determine her relative sophistication. See Johnson,
416 S.C. at 512, 788 S.E.2d at 218 (stating the party
opposing arbitration bears the burden of
demonstrating that he or she has a valid defense to
arbitration).
The Arbitration Agreement described the nature of
arbitration and the trial rights a resident was
waiving. It further stated the decision by the
arbitration panel was final. By signing the
Arbitration Agreement, Arredondo acknowledged she
had been given the opportunity to ask questions and
seek the advice of an attorney, although she did not
take advantage of this opportunity. See Towles v.
United HealthCare Corp., 338 S.C. 29, 39, 524 S.E.2d
839, 845 (Ct. App. 1999) (“After receiving and signing
the Acknowledgment, [a party to an arbitration
agreement] cannot legitimately claim [the other
party] failed to provide actual notice of the arbitration
provisions because the law does not impose a duty to
explain a document’s contents to an individual when
the individual can learn the contents from simply
reading the document.” (citing Citizens & S. Nat’l
Bank v. Lanford, 313 S.C. 540, 545, 443 S.E.2d 549,
551 (1994); Burwell v. S.C. Nat’l Bank, 288 S.C. 34,
39, 340 S.E.2d 786, 789 (1986)). Thus, the trial court

36a
erred in holding Arredondo did not understand the
rights she was waiving.
We find the terms of the Arbitration Agreement were
not one-sided or oppressive. The Arbitration
Agreement stated the purpose of the Agreement was
“to avoid costly and time-consuming litigation.” It
mandated all claims involving a potential monetary
amount in excess of $25,000 would be resolved by
binding arbitration. This limitation applied to both
parties. The Arbitration Agreement authorized the
resident to choose whether the dispute would be
decided by one or three neutral arbitrators. The
members of the arbitration panel were to be chosen
by the American Arbitration Association or by mutual
agreement of the parties. In addition, the Arbitration
Agreement provided for a physician to serve on the
arbitration panel if a medical issue may come before
the panel.2
The parties were to divide the cost of the arbitration
proceeding. However, if the resident was not able to
pay his or her half of the arbitration costs, Appellants
would pay the entire amount but would get to choose
the number of arbitrators. The Arbitration
Agreement did not prohibit a resident from pursuing
a claim or complaint with a local, state, or federal
agency and did not limit any resident’s rights
provided by state or federal law.
The Arbitration Agreement provides, “Where a medical issue
may more likely than not come before the Panel, and the panel
is three in number, one member of the Panel shall be a
Physician.”

2

37a
Arredondo asserts the terms of the Arbitration
Agreement were oppressive because it limited
discovery. The arbitration panel was to follow the
current Commercial Arbitration Rules of the
American Arbitration Association. It was to direct the
timetable and discovery in all controversies. This
court recognized limitations in arbitration do not
make an arbitration agreement unenforceable as
“[t]he benefits received by arbitration come with
certain limitations on discovery.” Lucey v. Meyer, 401
S.C. 122, 142, 736 S.E.2d 274, 285 (Ct. App. 2012)
(noting “‘while discovery generally is more limited in
arbitration than in litigation, that fact is simply one
aspect of the trade-off between the “procedures and
opportunity for review of the courtroom [and] the
simplicity, informality, and expedition of arbitration”
that is inherent in every agreement to arbitrate’ and
‘[b]ecause limited discovery is a consequence of
perhaps every agreement to arbitrate, it cannot,
standing alone, be a reason to invalidate an
arbitration agreement’” (quoting In re Cotton Yarn
Antitrust Litig., 505 F.3d 274, 286 (4th Cir. 2007)).
Arredondo also argues the terms were oppressive
because the Arbitration Agreement prohibited an
award of punitive damages. The supreme court
upheld a limitation on liability clause that prohibited
incidental, indirect, special, consequential, or
punitive damages, finding it was not contrary to
public policy and that its enforcement would not be
unconscionable. Maybank v. BB&T Corp., 416 S.C.
541, 576, 787 S.E.2d 498, 516 (2016). It explained,
Under its terms, it does not deprive [the
respondent] of all damages arising under the

38a
contract but merely limits the type of
damages he is entitled to recover. Specifically,
[the respondent] is precluded from seeking
consequential damages, indirect damages,
special damages, or punitive damages in
claims arising from his relationships with
Appellants; he is still entitled to actual
damages. While clauses limiting liability are
to be strictly construed, we find no reason to
ignore the plain language of the clause based
on either public policy or unconscionability
grounds.
Id.; contra Simpson, 373 S.C. at 28-30, 644 S.E.2d at
670-71 (finding an arbitration agreement that
prohibited “punitive, exemplary, double, or treble
damages (or any other damages which are punitive in
nature or effect)” was unenforceable “because it
prevents [the plaintiff] from receiving the mandatory
statutory remedies to which she may be entitled in
her underlying SCUTPA and Dealers Act claims” and
noting the provision “goes beyond banning ‘punitive’
damages generally and specifically prohibits an
arbitrator from awarding statutorily required treble
or double damages”).
Here, the Arbitration Agreement still allowed for
awards of equitable relief and economic and noneconomic damages. It did not prohibit any mandatory
statutory remedies. We find neither the limitations on
discovery nor the prohibition of punitive damages
made the terms of the Arbitration Agreement
oppressive. We hold the Arbitration Agreement was
“geared towards achieving an unbiased decision by a
neutral decision-maker.” See One Belle Hall Prop.

39a
Owners Ass’n, Inc., 418 S.C. at 60, 791 S.E.2d at 291
(quoting Simpson, 373 S.C. at 25, 644 S.E.2d at 668.
Thus, the trial court erred in holding the Arbitration
Agreement
was
unenforceable
due
to
unconscionability.
CONCLUSION
We find the Durable General Power of Attorney and
the Health Care Power of Attorney granted
Arredondo authority to execute the Arbitration
Agreement on behalf of her father. In addition, we
find
the
Arbitration
Agreement was
not
unconscionable. Accordingly, we hold the trial court
erred in denying Appellants’ motion to compel
arbitration.3
REVERSED
HUFF, THOMAS, and KONDUROS, JJ., concur.

As we find the above issues dispositive, we need not address
Appellants’ remaining issue. See Futch v. McAllister Towing of
Georgetown, Inc., 335 S.C. 598, 613, 518 S.E.2d 591, 598 (1999)
(declining to address remaining issues when prior issue is
dispositive).
3

40a
APPENDIX C
STATE OF SOUTH
CAROLINA

) IN THE COURT
)
OF COMMON
)
PLEAS
COUNTY OF
)
NINTH
CHARLESTON
)
JUDICIAL
)
DISTRICT
THAYER W. ARREDONDO, ) C.A. 2016-CP-10as Personal Representative
5319
)
of the Estate of HUBERT
)
WHALEY, deceased
)
)
Plaintiff,
)
)
v.
)
)
SNH SE ASHLEY RIVER
)
TENANT, LLC; FVE
ORDER
)
MANAGERS, INC.; FIVE
DENYING
)
STAR QUALITY CARE,
) DEFENDANTS’
INC.; SNH SE TENANT
MOTION TO
)
TRS, INC.; SENIOR
) DISMISS AND
HOUSING PROPERTIES
TO COMPEL
)
TRUST; SNH TRS, INC.;
) ARBIRATION
CANDY D. CURE; JOHN
)
DOE; JANE DOE;
)
RICHARD ROE
)
CORPORATION; and
)
MARY DOE
)
CORPORATION.
)
)
Defendants.
)

41a
This matter came to be heard upon Defendants’
Motion to Dismiss and to Compel Arbitration on
January 27, 2017. All parties were represented by
counsel, provided oral arguments, and also submitted
written memoranda and exhibits supporting their
positions. The Court hereby DENIES Defendant’s
Motion to Dismiss and Compel Arbitration for the
reasons set forth below.
FACTUAL BACKGROUND
Hubert Whaley, deceased, was admitted to Ashley
River Plantation on October 12, 2012, and placed
under the care, supervision, and control of the
Defendants. Mr. Whaley was a resident at
Defendants’ facility from October 12, 2012 to until
February 21, 2014, shortly before his death on
February 27, 2014, with the exception of hospital
admissions. Plaintiff alleges that Mr. Whaley suffered
injuries and death due to the Defendants’ negligence,
and filed the current action in the Charleston County
Court of Common Pleas.
At the time of his admission, Hubert Whaley did
not sign the alleged Arbitration Agreement presently
at issue. Nothing on the face of the document
suggested that Mr. Whaley lacked the capacity to
execute the document. Regardless, Mr. Whaley’s
daughter, Thayer Arredondo, was presented the
agreement for signature. (T. Arredondo Aff. ¶ 3). Ms.
Arredondo was not given the opportunity to discuss
the document with her father at the time it was
signed, nor was she asked to seek her father’s
permission to sign it. (T. Arredondo Aff. ¶ 3). Further,
no one from the facility reviewed the agreement that

42a
Ms. Arredondo had signed with her father after his
arrival to Ashley River Plantation. (T. Arredondo Aff.
¶ 2). When Ms. Arredondo had questions about the
agreement, she was simply told that it must be signed
to ensure her father’s admission to the facility. (T.
Arredondo Aff. ¶ 2). Despite her questions, no facility
representative ever explained that she was being
asked to give up her father’s constitutional right to a
jury trial if a claim for negligence was brought against
the facility, that she had the right to consult with an
attorney prior to execution, or of the right to withdraw
consent to the agreement. (T. Arredondo Aff. ¶ 2). The
Defendants allege that Ms. Arredondo executed the
Arbitration Agreement as Mr. Whaley’s “Authorized
Representative” and filed their Motion to Dismiss and
Compel Arbitration on November 11, 2016. Plaintiff
contends the alleged agreement should not be
enforced (1) because Ms. Arredondo lacked the
requisite authority to bind Mr. Whaley to arbitration;
and (2) because the Arbitration Agreement is
unconscionable.
ANALYSIS
While there is a presumption in favor of
arbitration agreements, this presumption only
applies where a valid arbitration agreement exists.
EEOC v. Waffle House, 534 U.S. 279, 293-294, 122 S.
Ct. 754, 764, 151 L.Ed.2d 755 (4th Cir. 2014).
Additionally, arbitration agreements are subject to
the same defenses applicable to all other contracts.
Rent-A-Center, West, Inc. v. Jackson, 561 U.S. 63, 68,
130 S. Ct. 2772, 2776, 177 L.Ed.2d 403 (2010) (quoting
Doctor’s Assocs., Inc. v. Casarotto, 517 U.S. 681, 687
(1996)).

43a
In this case, the agreement at issue fails because
Ms. Arredondo lacked the requisite authority to
execute the Arbitration Agreement on Mr. Whaley’s
behalf. Furthermore, the Arbitration Agreement is
procedurally and substantively unconscionable and
cannot be enforced.
1. Ms. Arredondo lacked the requisite
authority to execute the Arbitration
Agreement.
Ms. Arredondo lacked authority to execute the
purported arbitration agreement on Mr. Whaley’s
behalf. The legal consequences of an agent’s actions
can only be attributed to the principal when the
agent has actual or apparent authority.
Charleston, S.C. Registry v. Young Clement Rivers &
Tisdale, 359 S.C. 635, 642 (2004) (citations omitted).
Here, neither is present. Actual authority is that
which is “expressly conferred upon the agent by the
principal.” Id. Here, Ms. Arredondo lacked actual
authority to execute the agreement on Mr. Whaley’s
behalf as Mr. Whaley never expressly conferred any
authority to Ms. Arredondo to execute the arbitration
agreement. Although Ms. Arredondo had a
Healthcare Power of Attorney and a General Durable
Power of Attorney for Mr. Whaley, neither of these
documents conferred on Ms. Arredondo the authority
to execute the Arbitration Agreement on Mr.
Whaley’s behalf and waive his constitutional right to
a jury trial. As Mr. Whaley never expressly gave Ms.
Arredondo permission to sign the Arbitration
Agreement via these documents or otherwise, Ms.
Arredondo lacked the authority to execute the
Arbitration Agreement and it is unenforceable.

44a
Ms. Arredondo also lacked apparent authority to
execute the purported arbitration agreement. The
existence of apparent authority is determined by the
principal’s manifestation to third parties that the
agent has certain authority. See, Charleston, S.C.
Registry v. Young, Clement, Rivers, & Tisdale, LLC,
359 S.C. 635, at 642 (2004). “Agency may not be
established solely by the declarations and conduct of
an alleged agent…either the principal must intend to
cause the third person to believe that the agent is
authorized to act for him, or he should realize that his
conduct is likely to create such belief.” Frasier v.
Palmetto Holmes of Florence, Inc., 323 S.C. 240, 245,
473 S.E.2d 865, 868 (Ct.App. 1996) (citations omitted).
Here, Mr. Whaley was not involved in the admissions
process and he was not present when the arbitration
agreement was signed. Given his absence, it is
impossible that Mr. Whaley made manifestations of
apparent authority upon which the facility could rely.
Because Ms. Arredondo lacked the requisite authority
to enter into a contract on Mr. Whaley’s behalf
waiving his constitutional rights, no agreement to
arbitrate exists. In addition to lacking the authority
to bind Mr. Whaley to the Arbitration Agreement, Ms.
Arredondo also lacked the authority to bind Mr.
Whaley’s estate to the Arbitration Agreement.
Thompson v. Pruitt Corp, 416 S.C. 43, 784 S.E.2d 679
(Ct. App. 2016).
2.
The
Arbitration
procedurally
and
unconscionable.

Agreement
is
substantively

Unconscionability is defined “as the absence of
meaningful choice on the part of one party, due to one-

45a
sided contract provisions, together with terms that
are so oppressive that no reasonable person would
make them and no fair and honest person would
accept them.” Herron v. Century BMW, 387 S.C. 525,
532, 693 S.E.2d 394, 398 (citing Simpson v. MSA of
Myrtle Beach, Inc., 373 S.C. 14, 644 S.E.2d 663
(2007)). In determining unconscionability, the court
considers whether a contract is absent of meaningful
choice and contains oppressive, one sided terms.
“Absence of meaningful choice on the part of one party
generally speaks to the fundamental fairness of the
bargaining power in the contract at issue.” Id.
In determining whether there is an absence of
meaningful choice, the court can consider the relative
disparity of the parties’ bargaining power, the parties’
relative sophistication; the nature of the injuries
suffered by the plaintiff; whether the plaintiff is a
substantial business concern; whether there is an
element of surprise in the inclusion of the challenged
clause; and the conspicuousness of the clause. Id.
Here, the Arbitration Agreement at issue, and the
circumstances surrounding its execution, meets the
definition of unconscionable. For example, the
bargaining power between the parties in this case is
severely disparate. Neither Hubert Whaley nor
Thayer Arredondo had any bargaining power as they
had no input into the terms of the agreement nor had
any realistic opportunity to negotiate the terms of this
agreement. In fact, when Ms. Arredondo had
questions about the agreement, she was only told that
it must be signed to ensure her father’s admission to
the facility.

46a
In contrast, the Defendants are sophisticated
business and healthcare companies, who presented
Ms. Arredondo with a form contract prepared solely
by them, with terms heavily weighted to their favor
and with no opportunity for meaningful review,
discussion, or negotiation of terms. Ms. Arredondo, on
the other hand, was an individual in need of the
Defendants’ services lacking knowledge of arbitration
or of the constitutional right she was being asked to
waive. This Agreement was offered on a “take or leave
it” basis as it was represented as a condition for
admission to a facility which held itself out as
providing healthcare services that Mr. Whaley and
his family desperately needed.
In light of the one-sidedness of the terms of this
agreement, the manner in which the agreement was
presented, the relative disparity of the parties’
bargaining power, and the parties’ relative
sophistication, it is it is apparent that agreement is
unconscionable.
CONCLUSION
For the above reasons, the Defendants’ Motion to
Dismiss and Compel Arbitration is hereby denied.
This case is properly before the Court and discovery
shall proceed.
AND IT IS SO ORDERED
/s/ J.C. Nicholson, Jr.
The Honorable J.C. Nicholson, Jr.
Ninth Judicial Circuit

47a
April 17, 2017
Charleston, South Carolina

48a
APPENDIX D
STATE OF
SOUTH CAROLINA
COUNTY OF
CHARLESTON

)
)
GENERAL
) DURABLE POWER OF
)
ATTORNEY
)

KNOW ALL MEN BY THESE PRESENTS that I,
the undersigned Principal, Hubert James Whaley,
hereinafter sometimes referred to as “Principal”, in
the County and State aforesaid, have made,
constituted and appointed, and by these presents to
make, constitute and appoint Kathryn Ellen Craven
Whaley, hereinafter referred to as “Attorney”, my
true and lawful Attorney-in-Fact for me and in my
name, place and stead, and to my use, and with the
same force and effect as if I were personally present
and had executed or performed the same, to do any
one or more of the following acts or things, to wit:
1.
To make, sign, execute, issue, assign, transfer,
endorse, release, satisfy and deliver any and all
instruments or writing of every kind and description
whatsoever, whether sealed or unsealed, of, in or
concerning any or all of my business affairs, property
or other assets whatsoever, including all property,
real, personal or mixed, stocks, securities and choses
in action, and wheresoever situated, including,
without limiting the generality hereof thereto, notes,
bonds, mortgages, leases, deeds, conveyances, bills of
sale, and assignments, endorsements, releases,
satisfactions, pledges or any agreements concerning
any transfers of the above or of any other property,
right or thing.

49a
2.
To vote on any stock standing in my name or
owned by me in any corporation either in this State or
elsewhere, in person or by proxy.
3.
To endorse, pledge, deposit, assign, transfer or
sell or otherwise dispose of any such or any security
or other property, right or thing whatsoever.
4.
To consent to or oppose any reorganization,
compromise, composition, merger, consolidation,
substitution or other change regardless of the form
thereof.
5.
To ask for, demand, sue for, levy, recover and
receive all such sum and sums of money, debts, rents,
interest, profits, goods, wares, dues, stock, securities,
obligations, evidences of debt, accounts and other
demands whatsoever, including insurance or any
choses in action, and all real and personal property
and the rents and profits and income therefrom
whatsoever, which are or shall be due, owing or
payable to me or detained from me in any manner or
ways or means whatsoever, and upon receipt of any
such debts, dues or sums of money, or other things
aforesaid, acquittance or other sufficient discharges,
for me and in my name, to make, seal and deliver,
with full power to institute or defend any suit, action
or proceeding in my name as he may deem advisable.
6.
To grant, bargain, sell and release in fee simple
or convey for any lesser interest and deliver or lease,
sublease, mortgage or encumber any real estate and
personal property, either or both, in said State or
elsewhere, or any interests or estates I may have
therein for such prices and on such terms as he may

50a
think proper, and with full power in my name to
make, seal, execute and deliver good and sufficient
deeds of conveyance in fee simple or any other estate,
with or without general warranty, and any other
deeds or any papers necessary or proper to carry out
the foregoing as fully and effectually as I might or
could do if I were personally present, and to give full
acquittances or releases for the purchase money or
proceeds of the transaction.
7.
To pay out, reinvest, expend, dispose of or
otherwise deal with any moneys, funds, stocks, bonds,
securities or accounts and to deposit all or any
moneys, funds, checks, negotiable or commercial
paper or any property belonging to me in any bank or
banking institution and change the same from one
bank to another at pleasure and for me and in my
name and stead at any and all times to draw upon,
and, when so permitted by any such bank, to
overdraw same.
8.
To make, execute, sign, issue, assign, endorse
and transfer promissory notes, renewal notes, checks,
and other commercial or negotiable paper of every
kind and description, and to draw, accept or endorse
drafts and bills of exchange (foreign or domestic) and
to discount any promissory notes, drafts or bills, as
security for any promissory note, draft or bill so made,
drawn, accepted, endorsed or discounted as aforesaid,
to pledge and leave with any such bank or other
person, firm or corporation any business paper,
wharf, warehouse or other receipt, bill of lading, bill
or sale or collaterals or chattel or real estate
mortgages, stocks, securities, notes, bonds or other
evidence of debt or other evidences of ownership or

51a
title to, or of any interest or security in, any property
belonging to me or standing in my name.
To handle all of my accounts, as well as any and
all financial affairs and accounts. To cause to be
prepared and filed such State and Federal income tax
forms as may need to be filed on my behalf.
This Power of Attorney shall not be affected by
physical disability or mental incompetence of me the
Principal, which renders me, the Principal, incapable
of managing my own estate. It is my intent that the
authority conferred herein shall be exercisable
notwithstanding my physical disability or mental
incompetence.
This Power of Attorney shall remain in full force
and effect until the earlier of the following events: (1)
Attorney has resigned as provided herein; (2) I have
revoked this General Power of Attorney by a written
instrument recorded in the public records of the
County aforesaid; or (3) a Conservator shall have been
appointed for me by a Court of competent jurisdiction.
In the event that Attorney shall become unable or
unwilling to serve or continue to serve, then Attorney
may resign by delivering to me in writing a copy of
Attorney’s resignation and recording the original in
the public records of the County aforesaid. Upon such
resignation and recording, Attorney shall thereupon
be divested of all authority under this General Power
of Attorney.
In order to make the transfers described herein,
Attorney is fully authorized and empowered to

52a
execute documents and papers, including deeds of my
interest in real property, bills of sale of my personal
property, assignment of intangibles (including my
certificates of deposit) to make or endorse, or both, my
checks, make savings withdrawals from savings
accounts, enter my safe deposit box and remove all or
any part of the contents thereof, and to perform any
other and further acts or things necessary,
appropriate, or incidental thereto, with the same
validity and force and effect as if I were personally
present, competent, and personally exercised the
powers myself. No person dealing with Attorney shall
be responsible to determine or ensure proper
application of funds or property.
All acts and things done by my Attorney pursuant
to this General Power of Attorney during any period
of my disability or other mental incompetence shall
have the same force and effect and inure to the benefit
of and bind me and my heirs, devisees, legatees, and
personal representative as if I were mentally
competent and not disabled.
The powers herein conferred may be exercised by
Attorney alone without the necessity of Court Order
and the signature or acts of Attorney on my behalf
may be accepted by third persons or other parties as
fully authorized by me and with the same force and
effect as if done under my Hand and Seal and as if I
were present in person, acting on my own behalf and
competent. No person who may act in reliance upon
the representation of Attorney for the authority
granted to Attorney shah incur any liability to me or
to my estate as a result of permitting Attorney to
exercise any power.

53a
Any action taken by Attorney pursuant to this
Power shall be deemed conclusively to be an
acceptance of the appointment hereunder as
Attorney-in-Fact.
Attorney and Attorney’s heirs, successors, and
assigns are hereby released and forever discharged of
any and all liability upon any claim or demand of any
nature whatsoever by me, my heirs, or assigns, the
beneficiaries under my will or any trust which I have
created or shah hereafter create, or any person
whomsoever on account of action taken or failure to
act of Attorney pursuant to this General Power of
Attorney.
In the event that Kathryn Ellen Craven Whaley
should be unwilling or unable to serve, or unable or
unwilling to continue to serve as my Attorney in Fact,
or in the event (s)he should become disabled or
incapacitated, then I hereby nominate, constitute and
appoint Thayer Luanne Whaley Arredondo my
alternate Attorney-in-Fact, with all of the powers
enumerated elsewhere in this document.
IN WITNESS WHEREOF, as Principal I have
executed this General Power of Attorney and have
hereunto set my Hand and Seal this 30th day of
January in the year of our Lord two thousand and in
the two hundred and twenty-sixth year of the
Sovereignty and Independence of the United States of
America.
SIGNED, SEALED AND DELIVERED IN THE
PRESENCE OF:

54a
/s/ [illegible]

/s/ Hubert J. Whaley
Hubert James Whaley

(SEAL)

/s/ L. Bontae Wood
/s/ W. D. Murphy
STATE OF SOUTH CAROLINA

)

COUNTY OF CHARLESTON

)

PERSONALLY appeared before me the
undersigned witness, who, being duly sworn, says
that (s)he saw the Principal, above named, sign, seal
and deliver the within written General Power of
Attorney, for the uses and purposes therein
mentioned, and that (s)he, with the other witnesses,
in the presence of each other, subscribed to same and
witnessed the execution and delivery thereof.
/s/ L. Bontae Wood
Sworn to before me this
30th day of January, 2003
/s/ W. Dean Murphy
Notary Public for South Carolina
My commission expires: July 2, 2003

55a
Residence Address
WITNESS NO. 2:
/s/ L. Bontae Wood Date: Jan. 30, 2003
Signature
L. Bontae Wood
Print Name

Telephone: (843) 766-7004

659 St. Andrews Blvd. Chas., S. C. 29407
Residence Address
THE STATE OF SOUTH CAROLINA
COUNTY OF CHARLESTON
PERSONALLY appeared before me L. Bontae Wood,
and made oath that she saw the within named Hubert
James Whaley sign, seal, and as his act and deed,
deliver the within document and that she with W.
Dean Murphy, III witnessed the execution thereof.
SWORN to before me, this 30th
day of January, 2003
/s/ W. Dean Murphy

/s/ L. Bontae Wood

Notary Public of South Carolina
My Commission Expires: 7/02/11

56a
APPENDIX E
THIS IS AN IMPORTANT LEGAL DOCUMENT.
BEFORE SIGNING THIS DOCUMENT, YOU
SHOULD KNOW THESE IMPORTANT FACTS:
1. THIS DOCUMENT GIVES THE PERSON
YOU NAME AS YOUR AGENT THE POWER TO
MAKE HEALTH CARE DECISIONS FOR YOU
IF YOU CANNOT MAKE THE DECISION FOR
YOURSELF. THIS POWER INCLUDES THE
POWER TO MAKE DECISIONS ABOUT
LIFE-SUSTAINING TREATMENT. UNLESS
YOU STATE OTHERWISE, YOUR AGENT
WILL HAVE THE SAME AUTHORITY TO
MAKE DECISIONS ABOUT YOUR HEALTH
CARE AS YOU WOULD HAVE.
2. THIS POWER IS SUBJECT TO ANY
LIMITATIONS OR STATEMENTS OF YOUR
DESIRES THAT YOU INCLUDE IN THIS
DOCUMENT. YOU MAY STATE IN THIS
DOCUMENT ANY TREATMENT YOU DO NOT
DESIRE OR TREATMENT YOU WANT TO BE
SURE YOU RECEIVE. YOUR AGENT WILL BE
OBLIGATED
TO
FOLLOW
YOUR
INSTRUCTIONS WHEN MAKING DECISIONS
ON YOUR BEHALF. YOU MAY ATTACH
ADDITIONAL PAGES IF YOU NEED MORE
SPACE TO COMPLETE THE STATEMENT.
3. AFTER
YOU
HAVE
SIGNED
THIS
DOCUMENT, YOU HAVE THE RIGHT TO
MAKE HEALTH CARE DECISIONS FOR
YOURSELF IF YOU ARE MENTALLY

57a
COMPETENT TO DO SO. AFTER YOU HAVE
SIGNED THIS, NO TREATMENT MAY BE
GIVEN TO YOU OR STOPPED OVER YOUR
OBJECTION IF YOU ARE MENTALLY
COMPETENT TO MAKE THAT DECISION.
4. YOU HAVE THE RIGHT TO REVOKE THIS
DOCUMENT, AND TERMINATE
YOUR
AGENT’S AUTHORITY, BY INFORMING
EITHER YOUR AGENT OR YOUR HEALTH
CARE PROVIDER ORALLY OR IN WRITING.
5. IF THERE IS ANYTHING IN THIS
DOCUMENT
THAT
YOU
DO
NOT
UNDERSTAND, YOU SHOULD ASK A SOCIAL
WORKER, LAWYER, OR OTHER PERSON TO
EXPLAIN IT TO YOU.
6. THIS POWER OF ATTORNEY WILL NOT BE
VALID UNLESS TWO PERSONS SIGN AS
WITNESSES. EACH OF THESE PERSONS
MUST EITHER WITNESS YOUR SIGNING OF
THE POWER OF ATTORNEY OR WITNESS
YOUR ACKNOWLEDGMENT THAT THE
SIGNATURE ON THE POWER OF ATTORNEY
IS YOURS.
THE FOLLOWING PERSONS MAY NOT ACT
AS WITNESSES:
A. YOUR SPOUSE; YOUR CHILDREN,
GRANDCHILDREN, AND OTHER LINEAL
DESCENDANTS;
YOUR
PARENTS,
GRANDPARENTS, AND OTHER LINEAL
ANCESTORS; YOUR SIBLINGS AND THEIR

58a
LINEAL DESCENDANTS; OR A SPOUSE OF
ANY OF THESE PERSONS.
B. A PERSON WHO IS DIRECTLY
FINANCIALLY RESPONSIBLE FOR YOUR
MEDICAL CARE.
C. A PERSON WHO IS NAMED IN YOUR
WILL, OR, IF YOU HAVE WILL, WHO WOULD
INHERIT YOUR PROPERTY BY INTESTATE
SUCCESSION.
D. A BENEFICIARY OF A
INSURANCE POLICY ON YOUR LIFE.

LIFE

E. THE PERSONS NAMED IN THE
HEALTH CARE POWER OF ATTORNEY AS
YOUR AGENT OR SUCCESSOR AGENT.
F. YOUR
PHYSICIAN
OR
EMPLOYEE OF YOUR PHYSICIAN.

AN

G. ANY PERSON WHO WOULD HAVE A
CLAIM AGAINST ANY PORTION OF YOUR
ESTATE (PERSONS TO WHOM YOU OWE
MONEY).
IF YOU ARE A PATIENT IN A HEALTH
FACILITY, NO MORE THAN ONE WITNESS
MAY BE AN EMPLOYEE OF THAT FACILITY.
7. YOUR AGENT MUST BE A PERSON WHO IS
18 YEARS OLD OR OLDER AND OF SOUND
MIND. IT MAY NOT BE YOUR DOCTOR OR
ANY OTHER HEALTH CARE PROVIDER THAT
IS
NOW
PROVIDING
YOU
WITH

59a
TREATMENT; OR AN EMPLOYEE OF YOUR
DOCTOR OR PROVIDER; OR A SPOUSE OF
THE DOCTOR, PROVIDER, OR EMPLOYEE;
UNLESS THE PERSON IS A RELATIVE OF
YOURS.
8. YOU SHOULD INFORM THE PERSON
THAT YOU WANT HIM OR HER TO BE YOUR
HEALTH CARE AGENT. YOU SHOULD
DISCUSS THIS DOCUMENT WITH YOUR
AGENT AND YOUR PHYSICIAN AND GIVE
EACH A SIGNED COPY. IF YOU ARE IN A
HEALTH CARE FACILITY OR A NURSING
CARE FACILITY, A COPY OF THIS
DOCUMENT SHOULD BE INCLUDED IN
YOUR MEDICAL RECORD.
HEALTH CARE POWER OF ATTORNEY
(South Carolina Statutory Form, Code of Laws
Section 62-5-504)
9. DESIGNATION OF HEALTH CARE AGENT:
I,

Hubert James Whaley
(Principal)

, hereby appoint:

Kathryn Ellen Craven Whaley
(Agent)
1224 Forestwood Drive
(Address)
Charleston, SC 29407
766-7941
Home Telephone

Work Telephone

60a
as my Agent to make health care decisions for me as
authorized in this document.
10. EFFECTIVE DATE AND DURABILITY:
By this document, I intend to create a durable
Power of Attorney effective upon, and only during,
any period of mental incompetence.
11. AGENT’S POWERS:
I grant to my Agent full authority to make
decisions for me regarding my health care. In
exercising this authority, my agent shall follow
my desires as stated in this document or
otherwise expressed by me or known to my agent.
In making any decision, my agent shall attempt
to discuss the proposed decision with me to
determine my desires if I am able to communicate
in any way. If my Agent cannot determine the
choice I would want made, then my Agent shall
make a choice for me based upon what my Agent
believes to be in my best interests. My Agent’s
authority to interpret my desires is intended to be
as broad as possible, except for any limitations I
may state below.
Accordingly, unless specifically limited by
Section e., below, my Agent is authorized as
follows:
a. To consent, refuse, or withdraw consent to
any and all types of medical care, treatment,
surgical procedures, diagnostic procedures,
medication, and the use of mechanical or

61a
other procedures that affect any bodily
function, including, but not limited to,
artificial respiration, nutritional support and
hydration,
and
cardiopulmonary
resuscitation;
b. To authorize, or refuse to authorize, any
medication or procedure intended to relieve
pain, even though such use may lead to
physical damage, addiction, or hasten the
moment of, but not intentionally cause, my
death;
c.

To authorize my admission to or discharge,
even against medical advice, from any
hospital, nursing care facility, or similar
facility or service;

d. To take any other action necessary to making,
documenting, and assuring implementation
of decisions concerning my health care,
including, but not limited to, granting any
waiver or release from liability required by
any hospital, physician, nursing care
provider, or other health care provider;
signing any documents relating to refusals of
treatment or the leaving of a facility against
medical advice, and pursuing any legal action
in my name, and at the expense of my estate
to force compliance with my wishes as
determined by my agent, or to seek actual or
punitive damages for the failure to comply.

62a
e.

The powers granted above do not include the
following powers, or are subject to the
following rules or limitations:

12. ORGAN DONATION (INITIAL ONLY ONE) :
My Agent may /s/ HJW /may not ____ consent to
the donation of all or any of my tissue or organs
for purposes of transplantation.
13. EFFECT ON DECLARATION OF A DESIRE
FOR NATURAL DEATH (LIVING WILL) :
I understand that if I have a valid Declaration of
a Desire for a Natural Death, the instructions
contained in the Declaration will be given effect
in any situation to which they are applicable. My
Agent will have authority to make decisions
concerning my health care only in situations to
which the Declaration does not apply.
14. STATEMENT OF DESIRES AND SPECIAL
PROVISIONS:
With respect to any Life-Sustaining Treatment, I
direct the following (INITIAL ONLY ONE OF
THE FOLLOWING 4 PARAGRAPHS) :
(1) /s/ HJW GRANT OF DISCRETION TO
AGENT. I do not want my life to be prolonged
nor do I want life-sustaining treatment to be

63a
provided or continued if my Agent believes the
burdens of the treatment outweigh the
expected benefits. I want my agent to consider
the relief of suffering, my personal beliefs, the
expense involved and the quality as well as
the possible extension of my life in making
decisions
concerning
life-sustaining
treatment.
OR
(2) _____ DIRECTIVE TO WITHHOLD OR
WITHDRAW TREATMENT. I do not want
life-sustaining treatment:
A. If I have a condition that is incurable or
irreversible
and,
without
the
administration
of
life-sustaining
procedures, expected to result in death
within a relatively short period of time; or
B. If I am in a state of permanent
unconsciousness.
OR
(3) _____
DIRECTIVE
FOR
MAXIMUM
TREATMENT. I want my life to be prolonged
to the greatest extent possible, within the
standards of accepted medical practice,
without regard to my condition, the chances I
have for recovery, or the cost of the
procedures.

64a
OR
(4) _____ DIRECTIVE IN MY OWN WORDS:

15. STATEMENT OF
TUBE FEEDING:

DESIRES

REGARDING

With respect to Nutrition and Hydration provided
by means of nasogastric tube or tube into the
stomach, intestines or veins, I wish to make clear
that (INITIAL ONLY ONE):
/s/ HJW I DO NOT WANT to receive these forms
of artificial nutrition and hydration, and they may
be withheld or withdrawn under the conditions
given above.
OR
_____ I DO want to receive these forms of artificial
nutrition and hydration.
IF YOU DO NOT INITIAL EITHER OF THE ABOVE
STATEMENTS, YOUR AGENT WILL NOT HAVE
AUTHORITY TO DIRECT THAT NUTRITION AND
HYDRATION NECESSARY FOR COMFORT CARE
OF ALLEVIATION OF PAIN BE WITHDRAWN.
16. SUCCESSORS:
If an Agent named by me dies, becomes legally
disabled, resigns, refuses to act, becomes

65a
unavailable, or if an agent who is my spouse is
divorced or separated from me, I name the
following as successors to my Agent, each to act
alone and successively, in order named:
A. First Alternate Agent:
Whaley Arredondo
Address:

Thayer Luanne

2647 Elissa Drive

Charleston, SC 29414
Telephone
571-4272
B. Second Alternate Agent:
Address:
Telephone
17. ADMINISTRATIVE PROVISIONS:
A. I revoke any prior Health Care Power of
Attorney and any provisions relating to
health care of any other prior power of
attorney.
B. This Power of Attorney is intended to be valid
in any jurisdiction in which it is presented.
18. UNAVAILABILITY OF AGENT:
If at any relevant time, the Agent or Successor
Agents named herein are unable or unwilling to
make decisions concerning my health care, and
those decisions are to be made by a guardian, by

66a
the Probate Court, or by a surrogate pursuant to
the Adult Health Care Consent Act, it is my
intention that the guardian, Probate Court, or
surrogate make those decisions in accordance
with my directions as stated in this document.
BY SIGNING HERE, I INDICATE THAT I
UNDERSTAND THE CONTENTS OF THIS
DOCUMENT AND THE EFFECT OF THIS GRANT
OF POWERS TO MY AGENT.
I sign my name to this Health Care Power of Attorney
on this 30th day of January , 2003 . My current
home address is:
1224 Forestwood Drive, Charleston, SC 29407
/s/ Hubert J. Whaley
Sign your name
Hubert James Whaley
Print your name

WITNESS STATEMENT
I declare, on the basis of information and belief, that
the person who signed or acknowledged this
document (the principal) is personally known to me,
that he/she signed or acknowledged this Health Care
Power of Attorney in my presence, and that he/she
appears to be of sound mind and under no duress, or
undue influence.

67a
I am not related to the principal by blood, marriage or
adoption, either as a spouse, a lineal ancestor,
descendent of the parents of the principal, or spouse
of any of them. I am not directly financially
responsible for the principal’s medical care. I am not
entitled to a any portion of the principal’s estate upon
his/her decease, whether under any will or as an heir
by intestate succession, nor am I the beneficiary of an
insurance policy on the principal’s life, nor do I have
a claim against the principal’s estate as of this time. I
am not the principal’s attending physician, nor an
employee of the attending physician. No more than
one witness is an employee of a health facility in
which the principal is a patient. I am not appointed
as the Health Care Agent or Successor Health Care
Agent by this document.
WITNESS NO. 1:
/s/ W. Dean Murphy
Signature

Date: 1/30/03

W. Dean Murphy, III
Print Name

Telephone: (843) 766-7004

659 St. Andrews Blvd. Chas., S.C. 29407

68a
APPENDIX F
ARBITRATION AGREEMENT
This ARBITRATION AGREEMENT is entered into
as of this 12 day of October, 2012, by Hubert james
Whaley(“Resident”)
and
Thayer
Arredondo
(“Resident’s
Authorized
Representative,”)
(collectively “Resident”) and Ashley River Plantation
(“Facility,” an affiliate of Five Star Quality Care, Inc.,
collectively “Five Star”); and the Resident and Five
Star are the (“Parties”).
1. AGREEMENT TO ARBITRATE. Should a
dispute arise between the Parties, they desire to avoid
costly and time-consuming litigation. Resident and
Five Star agree that any claims, controversies,
or disputes arising between them involving a
potential monetary amount in excess of $25,000
shall be resolved exclusively by binding
arbitration. The arbitration shall be conducted in
the county where the Facility is located. Accordingly,
neither Resident nor Five Star will be permitted to
pursue court action regarding these claims,
controversies or disputes.
2. CONDUCT OF THE ARBITRATION. The
arbitration shall be conducted by a panel of either one
or three neutral arbitrators (the “Panel”), said
number being chosen by the Resident. The member(s)
of the Panel shall be chosen by the American
Arbitration Association (“AAA”) or by mutual
agreement between the parties. Where a medical
issue may more likely than not come before the Panel,
and the Panel is three in number, one member of the

69a
Panel shall be a physician. The Panel shall follow the
current Commercial Arbitration Rules of the AAA.
The Panel shall have the authority to set a timetable
for the arbitration and to direct discovery in all
controversies. The Panel shall obey the law. The
Panel shall have the authority to grant equitable
relief that could be ordered by a court. The Panel shall
have authority to award economic and non-economic
damages (including, damages for pain and suffering
and mental anguish); but shall have no authority to
award punitive or exemplary damages. The Panel’s
award may not exceed any award that could be
granted by a court. The decision of the Panel shall be
final, binding upon the Parties, not subject to appeal,
and any court having jurisdiction may enter a
judgment on the award.
3. COSTS OF ARBITRATION. Resident and Five
Star shall equally bear the costs and expenses of any
arbitration proceedings; including all costs of
administration, all expenses of the Panel, and all
hearing costs. Where the Resident supplies an
affidavit that they do not have the means to pay their
one half of the arbitration expenses, Five Star will
also pay the Resident’s share of the costs and
expenses. Where Five Star also pays the Resident’s
share of the costs and expenses, then regardless of
Paragraph 2 above, Five Star shall have the right to
chose whether the Panel shall be one or three neutral
arbitrators.
4. RESIDENT RIGHTS PRESERVED. Nothing in
this Agreement shall prohibit Resident or Five Star
from pursuing a claim or complaint with a local, state
or federal administrative agency, including, without

70a
limitation, any state office of the long-term care
ombudsman. This Agreement does, however, preclude
either Resident or Five Star from pursuing court
action regarding any such claim or complaint as
described in Paragraph 1 above. Nothing in this
Agreement shall limit or restrict any resident rights
provided under applicable state or federal law.
5. WAIVER OF JURY TRIAL. Any claim,
controversy, or dispute between the Parties for which
arbitration is not allowed by law shall be brought in
an appropriate court before a judge. Both Resident
and Five Star waive their right to a trial by jury.
6. GOVERNING LAW. The Parties acknowledge
that the Facility is located in the state of SCand is
operated by an affiliate of Five Star, a Maryland
corporation
with
its
corporate
office
in
Massachusetts. Goods and services provided by Five
Star to the Facility and/or Resident involve interstate
commerce. Further, certain services provided to
Resident by the Facility may be covered by the federal
Medicare or Medicaid programs, or regulated by other
federal statutes and regulations, also involve
interstate commerce. Therefore, the Parties agree
that the Federal Arbitration Act shall govern the
construction and enforcement of this Agreement.
7. SEVERABILITY. If any provision of this
Agreement is declared to be unlawful, invalid or
unenforceable for any reason, then notwithstanding
such unlawfulness, invalidity or unenforceability, the
remaining terms and provisions of this Agreement
shall remain in full force and effect.

71a
8. APPLICABILITY TO RELATED PARTIES.
Resident and Resident’s Authorized Representative
agree that this Agreement shall be binding upon them
personally. This agreement shall be binding upon and
inure to the benefit of all persons whose claim is
derived through or on behalf of the Resident,
including that of the Resident’s family, heirs,
guardian, executor, administrator and assigns. This
agreement shall be binding upon and inure to the
benefit of Five Star’s affiliates and subsidiaries and
their respective directors, officers, employees,
representatives, or agents.
9. AMENDMENT. This Agreement may be
amended by Five Star upon thirty (30) days written
notice to Resident. If Five Star provides notice to
Resident that it intends to amend the Agreement,
Resident may terminate the Agreement for any
reason by providing written notice to Five Star within
30 days of receipt of Five Star’s notice.
10. VOLUNTARY NATURE OF AGREEMENT.
Resident and Five Star acknowledge and agree that
each is executing this Agreement voluntarily and
without any duress or undue influence by the other
Party or anyone else. Resident and Five Star further
acknowledge and agree that each has carefully read
this Agreement and has asked any questions
necessary to understand the terms, consequences and
binding effect of this Agreement. Finally, Resident
and Five Star acknowledge that both Parties have
been provided an opportunity to seek the advice of an
attorney of their choice before signing this
Agreement.

72a
Signature Page to Follow:
/
/
/
/
THIS CONTRACT CONTAINS BOTH AN
ARBITRATION PROVISION AND A WAIVER
OF JURY TRIAL, WHICH MAY BE ENFORCED
BY THE PARTIES.
RESIDENT

SECOND RESIDENT

Signature: ____________ Signature:
Print Name: Hubert
Print Name:
James Whaley
Witness:
Witness:
RESIDENT’S AUTHORIZED REPRESENTATIVE
Signature: /s/ Thayer W. Arredondo
Relationship to Resident: daughter
Print Name: Thayer Arredondo
Witness: ____________
FIVE STAR QUALITY CARE, INC.
Signature: /s/ Tasha Williams
Print Name: Tasha Williams
Title: Sales Associate

